<html>
<title> - H.R., DRINKING WATER SYSTEM IMPROVEMENT ACT AND RELATED ISSUES OF FUNDING, MANAGEMENT, AND COMPLIANCE ASSISTANCE UNDER THE SAFE DRINKING WATER ACT</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


 H.R. ___, DRINKING WATER SYSTEM IMPROVEMENT ACT AND RELATED ISSUES OF 
FUNDING, MANAGEMENT, AND COMPLIANCE ASSISTANCE UNDER THE SAFE DRINKING 
                               WATER ACT

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 19, 2017

                               __________

                           Serial No. 115-33
                           
                           
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                        
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-456                       WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a6c1d6c9e6c5d3d5d2cec3cad688c5c9cb88">[email&#160;protected]</a> 
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
TIM MURPHY, Pennsylvania             ELIOT L. ENGEL, New York
MICHAEL C. BURGESS, Texas            GENE GREEN, Texas
MARSHA BLACKBURN, Tennessee          DIANA DeGETTE, Colorado
STEVE SCALISE, Louisiana             MICHAEL F. DOYLE, Pennsylvania
ROBERT E. LATTA, Ohio                JANICE D. SCHAKOWSKY, Illinois
CATHY McMORRIS RODGERS, Washington   G.K. BUTTERFIELD, North Carolina
GREGG HARPER, Mississippi            DORIS O. MATSUI, California
LEONARD LANCE, New Jersey            KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas                    JERRY McNERNEY, California
DAVID B. McKINLEY, West Virginia     PETER WELCH, Vermont
ADAM KINZINGER, Illinois             BEN RAY LUJAN, New Mexico
H. MORGAN GRIFFITH, Virginia         PAUL TONKO, New York
GUS M. BILIRAKIS, Florida            YVETTE D. CLARKE, New York
BILL JOHNSON, Ohio                   DAVID LOEBSACK, Iowa
BILLY LONG, Missouri                 KURT SCHRADER, Oregon
LARRY BUCSHON, Indiana               JOSEPH P. KENNEDY, III, 
BILL FLORES, Texas                       Massachusetts
SUSAN W. BROOKS, Indiana             TONY CARDENAS, CaliforniaL RUIZ, 
MARKWAYNE MULLIN, Oklahoma               California
RICHARD HUDSON, North Carolina       SCOTT H. PETERS, California
CHRIS COLLINS, New York              DEBBIE DINGELL, Michigan
KEVIN CRAMER, North Dakota
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia

<RAU>
                      Subcommittee on Environment

                         JOHN SHIMKUS, Illinois
                                 Chairman
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
  Vice Chairman                        Ranking Member
JOE BARTON, Texas                    RAUL RUIZ, California
TIM MURPHY, Pennsylvania             SCOTT H. PETERS, California
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
GREGG HARPER, Mississippi            DIANA DeGETTE, Colorado
PETE OLSON, Texas                    JERRY McNERNEY, California
BILL JOHNSON, Ohio                   TONY CARDENAS, California
BILL FLORES, Texas                   DEBBIE DINGELL, Michigan
RICHARD HUDSON, North Carolina       DORIS O. MATSUI, California
KEVIN CRAMER, North Dakota           FRANK PALLONE, Jr., New Jersey (ex 
TIM WALBERG, Michigan                    officio)
EARL L. ``BUDDY'' CARTER, Georgia
GREG WALDEN, Oregon (ex officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     1
    Prepared statement...........................................     3
Hon. Paul Tonko, a Representative in Congress from the State of 
  New York, opening statement....................................     4
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     5
    Prepared statement...........................................     6
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     7

                               Witnesses

Martin A. Kropelnicki, President and CEO, California Water 
  Service Group, on behalf of The National Association of Water 
  Companies......................................................     9
    Prepared statement...........................................    11
    Answers to submitted questions...............................   157
Scott Potter, Director of Nashville Metro Water Services, 
  Nashville, TN, on behalf of The American Municipal Water 
  Association....................................................    22
    Prepared statement...........................................    24
    Answers to submitted questions...............................   162
Steve Fletcher, Manager, Washington County Water Company, 
  Nashville, IL, on behalf of The National Rural Water 
  Association....................................................    35
    Prepared statement...........................................    37
Lisa Daniels, Director, Bureau of Safe Drinking Water, 
  Pennsylvania Department of Environmental Protection, on behalf 
  of The Association of State Drinking Water Administrators......    45
    Prepared statement...........................................    47
    Answers to submitted questions...............................   169
Kurt Vause, Special Projects Director, Anchorage Water and 
  Wastewater Utility, on behalf of The American Water Works 
  Association....................................................    57
    Prepared statement...........................................    59
    Answers to submitted questions \1\...........................   175
Lynn Thorp, National Campaigns Director, Clean Water Action......    74
    Prepared statement...........................................    76
    Answers to submitted questions...............................   177
James Proctor, Senior Vice President And General Counsel, McWane, 
  Inc............................................................    82
    Prepared statement...........................................    84

                           Submitted Material

Statement of the U.S. Environmental Protection Agency............   123
    Answers to submitted questions...............................   130
Letter of May 19, 2017, from Tony Cardenas to the subcommittee...   155

----------
\1\ Mr. Vause did not respond to questions for the record.

 
H.R. --------, DRINKING WATER SYSTEM IMPROVEMENT ACT AND RELATED ISSUES 
   OF FUNDING, MANAGEMENT, AND COMPLIANCE ASSISTANCE UNDER THE SAFE 
                           DRINKING WATER ACT

                              ----------                              


                          FRIDAY, MAY 19, 2017

                  House of Representatives,
                       Subcommittee on Environment,
                           Committee on Energy and Commerce
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 8:30 a.m., in 
room 2123, Rayburn House Office Building, Hon. John Shimkus, 
(chairman of the subcommittee) presiding.
    Present: Representatives Shimkus, McKinley, Barton, Murphy, 
Harper, Johnson, Hudson, Walberg, Carter, Walden (ex officio, 
Tonko, Ruiz, Peters, Green, McNerney, Dingell, Matsui, and 
Pallone (ex officio).
    Staff Present: Grace Appelbe, Legislative Clerk, Energy/
Environment Subcommittees; Ray Baum, Staff Director; Mike 
Bloomquist, Deputy Staff Director; Jerry Couri, Chief 
Environmental Advisor; Jordan Davis, Director of Policy and 
External Affairs; Wyatt Ellertson, Research Associate, Energy/
Environment Subcommittees; Blair Ellis, Digital Coordinator/
Press Secretary; Adam Fromm, Director of Outreach and 
Coalitions; Tom Hassenboehler, Chief Counsel, Energy/
Environment Subcommittees; Zach Hunter, Director of 
Communications; A.T. Johnston, Senior Policy Advisor, Energy 
Subcommittee; Alex Miller, Video Production Aide and Press 
Assistant; Dan Schneider, Press Secretary; Sam Spector, Policy 
Coordinator, Oversight and Investigations Subcommittee; Hamlin 
Wade, Special Advisor, External Affairs; Jeff Carroll, Minority 
Staff Director; Jacqueline Cohen, Minority Chief Environment 
Counsel; David Cwiertny, Minority Energy/Environment Fellow; 
Rick Kessler, Minority Senior Advisor and Staff Director, 
Energy and Environment Subcommittees; Alexander Ratner, 
Minority Policy Analyst; Andrew Souvall, Minority Director of 
Communications, Outreach and Member Services; and C.J. Young, 
Minority Press Secretary.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. I would like to call the hearing to order.
    And I want to thank our witnesses for joining us today.
    First of all, I know it is early. The one thing that is 
certain about us in Washington, D.C., is that there is 
uncertainty around us. So because of other meetings scheduled 
and planned, we asked for you to come early. And I do 
personally appreciate it. And it shows you the interest of our 
colleagues that they are here this early, so that is great.
    No matter how many miles you travel--first of all, we have 
got folks from as far away as Alaska and as close as 
Pennsylvania here. No matter how many miles you have traveled 
to be with us, we are grateful for the time and financial 
sacrifice you are making to share your expertise with us today.
    I also want to mention that even though they did not send 
someone to present oral testimony, I appreciate the 
Environmental Protection Agency providing us with a written 
statement to include in our hearing record. I ask for unanimous 
consent.
    Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Shimkus. And I am also pleased to announce that the 
Agency has agreed to take written questions from members for 
our hearing record. This is highly unusual but an essential 
step to making this hearing record as complete as possible. And 
we obviously consider the Agency an important player whose 
technical experience and input is critical to the quality of 
our work.
    I now recognize myself 5 minutes for giving an opening 
statement.
    Today, our panel continues its look broadly at our Nation's 
drinking water infrastructure structure and examine questions 
as to what is necessary for the Federal Government to do in the 
way of planning, reinvestment, and technical support of these 
systems to meet future needs.
    The discussion draft which is subject to the hearing is 
meant to build on the testimony from our last hearing to help 
our subcommittee think more precisely about what items should 
be prioritized for legislation and how they should be addressed 
in the legislation.
    Importantly, the discussion draft is not a finite universe 
of all the issues that the committee is open to considering. It 
is a true baseline for conversation and an invitation for 
feedback or refinements or suggested alternative approaches and 
an opportunity to make the case for including additional 
issues.
    I know that some of us here today are curious why one 
provision or another is not added. I hope we can talk about 
those things today. I suspect we might be able to find 
agreement on some of those issues after we have had some time 
to find out each other's objectives and reflect on the best way 
to balance the needs of water, consumers, providers, and 
program implementers.
    Let me take a minute to explain some items in the 
discussion draft, why they are there.
    Based on oral testimony and written responses for the 
record, the water utility groups that testified at the last 
hearing talked about the importance of partnerships for 
addressing growth and compliance issues. The discussion draft 
proposes language to allow contractual arrangements or 
management of engineering services that will get a water system 
into compliance.
    Under questioning, many of the witnesses mentioned the 
important role that asset management can play in addressing 
short- and long-term water system needs but that mandating this 
requirement would be challenging. The discussion draft has 
states consider how to encourage best practices in asset 
management and has the EPA update technical and other training 
materials on asset management.
    We received testimony on the need to further aid 
disadvantaged communities. The discussion draft increases the 
amount a state can dedicate to disadvantaged communities to 35 
percent of their annual capitalization grant and permit states 
to extend loan payments for these communities by another 10 
years.
    We received testimony on the need to increase funding for 
the Drinking Water State Revolving Loan Fund and the Public 
Water System Supervision grant, but not specific 
recommendations about what a realistic number is or whether 
commensurate budgetary cuts will offset these increases.
    In response to this, the discussion draft creates a 5-year 
authorization for appropriations of both these programs but 
leaves them blank to allow a greater and more specific 
conversation to occur. This will not be easy. Some of these 
conversations will be very difficult, but we will have to have 
them in an open and honest manner, but that is not new. Anyone 
who has been around our subcommittee for a while knows we have 
a reputation for tackling challenging issues.
    As I said earlier, we are at the beginning of this journey 
with a discussion draft as a baseline, and we are not close to 
the finish line as of yet.
    With that, I yield back my remaining time. And now I yield 
to my friend from New York, the ranking member, Mr. Tonko.
    [The prepared statement of Mr. Shimkus follows:]

                Prepared statement of Hon. John Shimkus

    The Subcommittee will now come to order.
    I want to thank our witnesses for joining us today, one 
from as far away as Alaska and the other as close as 
Pennsylvania. No matter how many miles you traveled to be with 
us, we are grateful for the time and financial sacrifice you 
are making to share your expertise with us today.
    I also want to mention that, even though they did not have 
send someone to present oral testimony, I appreciate that the 
Environmental Protection Agency provided us written statement 
to be included in our hearing record, so ordered.
    I am also pleased to announce that the Agency has agreed to 
taken written questions from Members for our hearing record. 
This is a highly unusual, but essential step to making this 
hearing record as complete as possible and we, obviously, 
consider the Agency an important player whose technical 
experience and input is critical to the quality of our work.
    I now recognize myself for 5 minutes for giving an opening 
statement.
    Today, our panel continues its look broadly at our nation's 
drinking water infrastructure and examine questions about what 
is necessary for the Federal government to do in the way of 
planning, reinvestment, or technical support of these systems 
to meet future needs.
    The Discussion Draft, which is the subject of the hearing, 
is meant to build on the testimony from our last hearing and 
help our subcommittee think more precisely about what items 
should be prioritized for legislation and how they should be 
addressed in that legislation.
    Importantly, the Discussion Draft is not a finite universe 
of the issues that the Committee is open to considering. It is 
a true baseline for conversation and an invitation for feedback 
on refinements or suggested alternative approaches and an 
opportunity to make the case for including additional issues.
    I know that some of us here would are curious why one 
provision or another is not added, I hope we can talk about 
those things today. I suspect we might be able to find 
agreement on some of those issues after we have had some time 
to find out each other's objectives and reflect on the best way 
to balance the needs of water consumers, providers, and program 
implementers.
    Let me take a minute to explain some items in the 
Discussion Draft and why they are.
    Based on oral testimony and written responses for the 
record, the water utility groups that testified at the last 
hearing talked about the importance of partnerships for 
addressing growth and compliance issues. The Discussion Draft 
proposes language to allow contractual arrangements for 
management and engineering services that will get a water 
system into compliance.
    Under questioning, many of the witnesses mentioned the 
import role that asset management can play in addressing short 
and long-term water system needs, but that mandating this 
requirement would be challenging. The Discussion Draft has 
States consider how to encourage best practices in asset 
management and has EPA update technical and other training 
materials on asset management.
    We received testimony on the need to further aid 
disadvantaged communities. The Discussion Draft increases the 
amount a State can dedicate to disadvantaged communities to 35 
percent of their annual capitalization grant and permits States 
to extend loan repayment for these communities by another 10 
years.
    We received testimony on the need to increase funding for 
the Drinking Water State Revolving Loan Fund and the Public 
Water System Supervision grants, but not specific 
recommendations about what a realistic number is--or whether 
commensurate budgetary cuts will offset these increases. In 
response to this, the Discussion Draft creates 5-year 
authorizations for appropriations of both of these programs, 
but leaves them blank to allow a greater and more specific 
conversation to occur.
    This will not be easy--some of these conversations will be 
very difficult, but we will have to have them in an open an 
honest manner, but this is not new. Anyone who has been around 
our subcommittee for a while knows we have a reputation for 
tackling challenging issues.
    As I said earlier, we are at the beginning of this 
journey--with the Discussion Draft a baseline--and we are not 
close to the finish line.
    With that, I yield back my remaining time and now yield to 
my friend from New York, the Ranking Member of the 
Subcommittee, Mr. Tonko.

   OPENING STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Tonko. Thank you, Chairman Shimkus. And thank you to 
our witnesses for being here on what is apparently a very busy 
morning in the House.
    We can all agree that aging drinking water systems can hold 
back economic growth and threaten public health. These problems 
will only get worse if we continue the decade's long trend of 
neglect. I know we have limited time, so I will not restate all 
the details of our growing national need to invest in drinking 
water systems and update the Safe Water Drinking Water Act. 
Suffice it to say, the need is immensely great. This 
subcommittee has been building a tremendous record that more 
than justifies the need for action.
    Mr. Chair, I appreciate you holding this hearing and 
offering the discussion draft to bring attention to our hidden 
infrastructure, which has been out of sight and, regrettably, 
out of mind for far too long.
    This draft responds to many of the issues that have been 
identified in previous hearings: the need to reauthorize the 
Drinking Water SRF and the Public Water System Supervision 
program; as well as the need to encourage asset management 
plans, greater source water protection, and support for 
disadvantaged communities.
    With that said, I truly believe we can improve upon the 
draft before us today which will ensure strong bipartisan 
support moving forward. There are a number of democratic bills 
that have already been introduced that can help inform these 
efforts. The AQUA Act includes provisions on how to further 
assist disadvantaged communities and better incentivize asset 
management plans. It would also help fulfill a stated goal of 
this administration mandating Buy America requirements.
    Mr. Pallone's SDWA amendments would enable EPA to 
promulgate much needed national standards. The bill also 
creates programs to reduce lead in schools among other 
important SDWA updates.
    Mr. Peters has a bill to provide grants to assist systems 
with resiliency, source water protection, and security in the 
face of changing hydraulic conditions, such as droughts, sea 
level rise, and other emerging pressures on systems.
    We do know the national need is growing: $384 billion over 
the next two decades to maintain current levels of services. We 
need to have the vision to acknowledge that this does not 
account for stresses, environmental and financial, that will 
continue to get worse if we simply do nothing.
    Finally, the Drinking Water SRF has been a tremendous 
success. I am grateful that Chair Shimkus has undertaken the 
first funding reauthorization since its inception in 1996. But 
as we will hear today, the draft includes unspecified funding 
levels.
    As a candidate, President Trump called for tripling funding 
for both SRF programs. The AQUA Act proposes levels that are in 
line with that--with what states handled following the Recovery 
Act. I think these are good targets to start negotiations.
    We must recognize that local governments are struggling. 
Significant amounts of projects go unfunded each year, and the 
status quo of Federal support will simply not reduce the 
massive and growing levels of need. It is time for the Federal 
Government to step up and contribute its fair share.
    Mr. Chair, I would end by asking for a commitment to sit 
down with our side, learn more about some of our proposals, and 
work together to make this a truly bipartisan effort that moves 
us forward. We had close cooperation on the brownfields 
reauthorization draft. I think we can get to a similar place on 
drinking water.
    And with that, I yield back.
    Mr. Shimkus. I thank the gentleman. The gentleman yields 
back.
    The chair now recognizes the Chairman of the Full 
Committee, Mr. Walden, for 5 minutes.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Thank you, Mr. Chairman.
    In March, our committee began a review of the financial 
needs of our entire Nation's drinking water infrastructure. We 
spoke about the need to think broadly about all things that can 
affect water affordability, reliability, and safety. Today, we 
take the next steps in our deliberative process by reviewing 
the discussion draft and related ideas from stakeholders to 
formulate policy on drinking water, state revolving loan 
funding, and Public Water System Supervision grants.
    We will also examine efforts to improve asset management by 
utilities and other ways to lift paperwork burdens and improve 
systems delivery of safe drinking water.
    Both sides of the aisle support making newer and larger 
investments in our Nation's infrastructure, and I agree that we 
need to help ensure these assets support the great quality of 
life Americans enjoy. However, in doing so, we must be careful 
to select wise investments and create diversified options that 
make sense for water systems, for states, and for consumers. It 
is important for us to tackle this job seriously for a couple 
of reasons.
    As we learned at the last hearing, the country's drinking 
water delivery systems are facing the challenges of older age. 
We learned from the water utilities and other stakeholders the 
importance of partnerships for addressing growth and compliance 
issues.
    The discussion draft proposes language to allow contractual 
arrangements for management and engineering services that will 
get a water system into compliance. We welcome feedback on that 
approach.
    We also received testimony on the need to increase funding 
for the Drinking Water State Revolving Loan Fund and Public 
Water System Supervision grants, but not specific 
recommendations about what a realistic number is or whether 
budgetary cuts will offset these increases.
    For the last couple of years, the appropriated levels have 
been consistent. The appropriations for the Drinking Water 
Revolving Loan Fund were last authorized in 2003. That is long 
enough. It is time to reassert this committee's proper role in 
authorizing our statutes and realign the focus of the EPA and 
other agencies back to their core missions, in this case, 
ensuring the provision of safe drinking water for our Nation's 
consumers.
    We look forward to continuing the dialogue on this as our 
committee process continues.
    I want to welcome all of you here today, our witnesses, who 
took time and traveled from far and wide to be with us to 
comment on this discussion draft, and that is what it is. Your 
input is important, and we would appreciate specific 
recommendations as you are able to give on these important 
issues.
    And, again, thank you all for being here. We all care 
deeply about drinking water, safe drinking water, and helping 
our communities achieve that for all of our citizens in the 
country.
    And with that, Mr. Chair, I yield back the balance of my 
time.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    In March, our committee began a review of the financial 
needs of our entire nation's drinking water infrastructure. We 
spoke about the need to think broadly about all the things that 
can affect water affordability, reliability, and safety.
    Today we take the next steps in our deliberative process by 
reviewing a discussion draft and related ideas from 
stakeholders to formulate policy on drinking water state 
revolving loan funding and public water system supervision 
grants. We will also examine efforts to improve asset 
management by utilities, and other ways to lift paperwork 
burdens and improve systems' delivery of safe drinking water.
    Both sides of the aisle support making newer and larger 
investments in our nation's infrastructure and I agree that we 
need to help ensure these assets support the great quality of 
life Americans enjoy in the future. However, in doing so, we 
must be careful to select wise investments and create 
diversified options that make sense for water systems, states, 
and consumers. It is important for us to tackle this job 
seriously for a couple reasons.
    As we learned at the last hearing, the country's drinking 
water delivery systems are facing the challenges of older age. 
We learned from the water utilities and other stakeholders the 
importance of partnerships for addressing growth and compliance 
issues. The discussion draft proposes language to allow 
contractual arrangements for management and engineering 
services that will get a water system into compliance. We 
welcome feedback on that approach.
    We also received testimony on the need to increase funding 
for the Drinking Water State Revolving Loan Fund and the Public 
Water System Supervision grants, but not specific 
recommendations about what a realistic number is--or whether 
budgetary cuts will offset these increases. For the last couple 
years, the appropriated levels have been consistent; the 
appropriations for the Drinking Water Revolving Loan Fund were 
last authorized in 2003. That is long enough. It is time to 
reassert this committee's proper role in authorizing our 
statutes, and realign the focus of the EPA and other agencies 
back to the core missions: in this case ensuring the provision 
of Safe Drinking Water for our nation's consumers. We look 
forward to continuing the dialogue on this as our process 
continues.
    I want to welcome all our witnesses who took time and 
traveled from far and wide to be with us to comment on the 
discussion draft. Your input is important, and we would 
appreciate as specific of recommendations as you are able to 
give on these important issues.

    Mr. Shimkus. The gentleman yields back the balance of his 
time.
    The chair now recognizes the Ranking Member of the Full 
Committee, Mr. Pallone, for 5 minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman. Thank you.
    The safety of our drinking water is an incredibly important 
topic which deserves more time than we have at today's hearing.
    At our last drinking water hearing, we heard broad 
agreement from witnesses and members that we need to 
reauthorize the Drinking Water State Revolving Fund and 
increase the funding. My democratic colleagues and I have been 
saying this for years, so I am encouraged that Republicans on 
this subcommittee now seem to agree.
    Unfortunately, this rushed hearing is not sufficient to 
address this issue. We have great ideas, but they are not 
reflected in the barebones discussion draft. We need a 
bipartisan effort to modernize the Safe Drinking Water Act, but 
in preparing this discussion draft, your staff didn't consult 
with us. We were eager to work with you, but we were told, 
without explanation, that such discussions could only happen 
after this hearing.
    So before us today is a discussion draft that, in my 
opinion, fails to measure up to the severity of the problem. It 
simply does not meet the needs of public water systems and the 
communities they serve. The draft contains nothing to address 
the growing problems of lead in drinking water in homes and 
schools. It does nothing to improve the regulatory process and 
better protect public health from new and emerging pollutant 
classes, and it does nothing to improve transparency and 
restore consumer confidence in the safety of our tap water, and 
there is no commitment to increase funding.
    So I am disappointed in the discussion draft, and I urge my 
colleagues to look at the real solutions in the bills that my 
democratic colleagues and I have introduced, and that is H.R. 
1071, the AQUA Act of 2017, and H.R. 1068, the Safe Drinking 
Water Act Amendments of 2017.
    I want to thank our witnesses for coming. I apologize that 
we don't have more time available, but I also want to express 
my frustration at the lack of a witness from the EPA. This 
subcommittee cannot produce meaningful legislation to 
reauthorize the state revolving fund and strengthen the Safe 
Drinking Water Act without their input. So it is clear we need 
to have another hearing.
    Safe drinking water is simply too important, and I hope we 
can start to work together on a bipartisan bill to tackle these 
serious problems.
    I yield back, Mr. Chairman.
    Mr. Shimkus. The gentleman yields back his time.
    All members having concluded their opening statements, the 
chair would like to remind members that pursuant to the 
Committee rules, all members' opening statements will be made 
part of the record.
    I want to thank all of our witnesses for being here today 
and taking the time to testify before the subcommittee. Today's 
witnesses will have the opportunity to give opening statements, 
followed by a round of questions from members. Our witness 
panel for today's hearing are in front of us.
    What I will do is recognize you individually for 5 minutes. 
Your full statements are submitted for the record. And as you 
can see, there is a lot of interest from our side. So if you 
get too far over the 5 minutes, I might start tapping the gavel 
to get you to wind up.
    And before I take more time, let me just start by 
recognizing Mr. Martin Kropelnicki, President and CEO of the 
California Water Services Group, on behalf of the National 
Association of Water Companies. He testified here before. We 
are glad to have you back.
    You are recognized for 5 minutes.

    STATEMENTS OF MARTIN A. KROPELNICKI, PRESIDENT AND CEO, 
   CALIFORNIA WATER SERVICE GROUP, ON BEHALF OF THE NATIONAL 
   ASSOCIATION OF WATER COMPANIES; SCOTT POTTER, DIRECTOR OF 
NASHVILLE METRO WATER SERVICES, NASHVILLE, TN, ON BEHALF OF THE 
AMERICAN MUNICIPAL WATER ASSOCIATION; STEVE FLETCHER, MANAGER, 
 WASHINGTON COUNTY WATER COMPANY, NASHVILLE, IL, ON BEHALF OF 
 THE NATIONAL RURAL WATER ASSOCIATION; LISA DANIELS, DIRECTOR, 
   BUREAU OF SAFE DRINKING WATER, PENNSYLVANIA DEPARTMENT OF 
ENVIRONMENTAL PROTECTION, ON BEHALF OF THE ASSOCIATION OF STATE 
  DRINKING WATER ADMINISTRATORS; KURT VAUSE, SPECIAL PROJECTS 
DIRECTOR, ANCHORAGE WATER AND WASTEWATER UTILITY, ON BEHALF OF 
  THE AMERICAN WATER WORKS ASSOCIATION; LYNN THORP, NATIONAL 
  CAMPAIGNS DIRECTOR, CLEAN WATER ACTION; AND JAMES PROCTOR, 
    SENIOR VICE PRESIDENT AND GENERAL COUNSEL, MCWANE, INC.

               STATEMENT OF MARTIN A. KROPELNICKI

    Mr. Kropelnicki. Thank you, Mr. Chairman.
    Good morning. I am Marty Kropelnicki, President and CEO of 
California Water Service Group, or Cal Water. We provide water 
and wastewater services to approximately 2 million people in 
the great State of California, Hawaii, New Mexico, and 
Washington, State of Washington. I am also the current 
President of National Association of Water Companies, which I 
am here representing today. NAWC's members have provided water 
and utility services for more than 200 years, and they serve 
approximately 25 percent of the U.S. population.
    NAWC applauds you, Mr. Chairman, and this subcommittee for 
highlighting America's drinking water infrastructure needs and 
putting forward a discussion draft amendment to the Safe 
Drinking Water Act for utilities and regulators to review.
    We are all working together toward the same outcome: safe, 
reliable, sustainable high-quality drinking water, which is 
critical to every person, every community, and every business 
in this country.
    Suffice it to say that substantial portions of the utility 
sector face significant challenges. The Nation's drinking water 
infrastructure recently received a D by the American Society of 
Civil Engineers. The American Water Works Association projects 
that $1 trillion will be needed to invest infrastructure 
through 2035 to replace aging infrastructure to keep up with 
population growth.
    More ominously, recent reports by the Natural Resources 
Defense Council showed that nearly one in four Americans get 
drinking water from untested and contaminated systems.
    With great challenges come great opportunities, and that is 
what we are here to talk about today. The discussion draft put 
forward by the subcommittee is a good first step to addressing 
the crisis. Legislation along these lines would do much to 
build upon and advance the good work of many water suppliers 
that are already undertaken.
    For example, NAWC estimates that our six largest members, 
of which Cal Water is one, will invest in nearly $2.7 billion 
this year alone in their water systems to ensure that they 
remain safe, reliable, and are sustainable for decades to come.
    Federal funds alone will not fix this problem, especially 
given that many of the problems are the results of poor 
decisionmaking year after year after year and not necessarily 
the absence of funding.
    Let me highlight for you several recommendations for 
Congress to consider. First, we must ensure that any Federal 
funds are used efficiently and effectively. NAWC and its 
members support the EPA's 10 attributes of effective utility 
management, which includes things such as financial viability 
and infrastructure stability.
    Applicants for dollars of public funds should demonstrate 
that there are management assets that adequate repair, 
rehabilitation, and replacement are fully reflected in 
management decisions, including water rates that reflect the 
true and full cost of service.
    Second, failing systems that are in seriously noncompliant 
situations with water quality standards must be held 
accountable. If a system is plagued with a history of serious 
noncompliance, it should be given an option to pursue a 
partnership that will lead to compliance or be compelled to 
consolidate system with an able owner or operator.
    Finally, as Congress considers future funding for drinking 
water programs, NAWC recommends that the private water sector 
not only have equal access to Federal funding but also that 
steps be taken to further enable and incentivize private water 
investment and involvement in solving the Nation's 
infrastructure challenges.
    Apart from the more obvious tax-based measures, these 
incentives should include providing a safe harbor or a shield 
that would allow companies like Cal Water or NAWC members to 
partner with undercompliant systems and give them that ramp-up 
time to be coming into compliance.
    Quite simply, private water companies like Cal Water and 
NAWC members have the financial balance sheets, managerial and 
technical expertise to help ensure that all Americans have 
safe, reliable, and sustainable high-quality drinking water.
    I sincerely appreciate the invitation to come back here 
today to testify. Along with my colleagues at NAWC, we look 
forward to continuing our work with you and this committee as 
we work on the Nation's infrastructure challenges.
    Thank you. And I would be happy to respond to any 
questions, Mr. Chairman.
    [The prepared statement of Mr. Kropelnicki follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. Thank you. The gentleman yields back his time.
    The chair now recognizes Mr. Scott Potter, Director of the 
Nashville Metro Water Services in Nashville, Tennessee, on 
behalf of the Association of Metropolitan Water Agencies.
    You are recognized for 5 minutes, sir. Thank you.

                   STATEMENT OF SCOTT POTTER

    Mr. Potter. Good morning, sir.
    Chairman Shimkus, Ranking Member Tonko, and members of the 
subcommittee, the Association of Metropolitan Water Agencies, 
or AMWA, appreciates the opportunity to offer our thoughts 
today on the Drinking Water System Improvement Act of 2017.
    I am Scott Potter, Director of Metro Water Services in 
Nashville, Tennessee. We provide drinking water services to 
190,000 households and 200,000 sewer accounts in Nashville and 
Davidson County in Tennessee. I also serve as President of 
AMWA's Board of Directors. AMWA is an organization representing 
the Nation's largest publicly owned drinking water utilities, 
which collectively serve over 130 million Americans with 
quality drinking water. Our members support reauthorization of 
the Drinking Water SRF, and we appreciate that the legislation 
before the subcommittee today would do so for the first time in 
the program's history.
    My written testimony has been submitted for the record. It 
includes more detailed feedback on the various sections of the 
legislation, so I will use my time today to speak more 
generally about the bill and AMWA's priorities for 
reauthorization of the Drinking Water SRF.
    Simply put, we believe that the Drinking Water SRF is a 
valuable program. It should remain a cornerstone of Federal 
efforts to promote cost-effective water infrastructure 
financing to help communities protect public health and meet 
the regulatory requirements of the Safe Drinking Water Act.
    We are pleased the Drinking Water System Improvement Act 
preserves the existing framework of the Drinking Water SRF, 
while making several targeted modernizations to the program and 
the Safe Drinking Water Act as a whole.
    For example, the bill will leverage the expertise of large 
water utilities by encouraging them to enter into agreements to 
help in-need water systems correct, identify water quality 
violations, and carry out necessary management and 
administrative functions.
    The bill also recognizes the importance of asset management 
by directing states to describe steps they will take to promote 
the adoption of effective asset management principles, 
practices, and how they will assist local utilities in training 
their staff to implement asset management plans.
    We support these measures, though AMWA also believes 
utilities that have completed qualifying asset management plans 
should be rewarded with a degree of additional preference when 
they apply for Drinking Water SRF assistance.
    The idea is not to make asset management plans mandatory or 
to exclude systems without asset management plans from 
receiving funding, but instead to incentivize all public water 
systems that seek SRF dollars to think holistically about the 
full life-cycle costs of their infrastructure.
    As this legislation continues to develop, AMWA would like 
to recommend several additional points for consideration. 
Perhaps most importantly, the final bill should reauthorize the 
Drinking Water SRF at a level that recognizes the immense 
nationwide water infrastructure need and does not inadvertently 
constrain Congress' ability to fund the Drinking Water SRF at 
an amount that appropriately responds to these needs.
    For example, initial versions of the fiscal year 2017 EPA 
appropriations bill approved by the House and Senate committees 
last year would have provided more than $1 billion for the 
Drinking Water SRF. Given the Nation's infrastructure needs and 
the apparent willingness of appropriators to provide this level 
of investment in the program, this legislation should authorize 
the funding level comfortably in excess of this figure.
    Earlier this year, AMWA and other water sector stakeholders 
endorsed a call to double Drinking Water SRF funding to roughly 
$1.8 billion. So a figure in this vicinity would serve as a 
reasonable starting point for the new authorization level.
    AMWA also supports expanding the Safe Drinking Water Act's 
definition of a disadvantaged community eligible for additional 
assistance to include a portion of the utility service area. 
The statute currently requires all the utility service area to 
meet the state's affordability criteria, but this is difficult 
to achieve for large metropolitan water systems that typically 
serve diverse populations that both have areas of affluence and 
also areas with concentrations of people in need.
    By allowing defined portions of a large utility service 
area to be classified as disadvantaged, more individual in-need 
neighborhoods served by America's large water providers would 
become eligible for the same type of benefits that are already 
available to many small cities and towns throughout the 
country.
    Finally, we support codifying the ability of recipients to 
use Drinking Water SRF funds for projects to improve the 
security of a public water system.
    In 2014, Congress explicitly allowed the use of clean water 
SRF funds for security improvement projects at publicly owned 
treatment works. So we believe it is appropriate to formally 
extend the same ability to public water systems.
    In closing, AMWA believes this legislation is a good 
starting point for efforts to reauthorize the Drinking Water 
SRF. We look forward to continuing to work with members of the 
subcommittee on this legislation, and I will be happy to answer 
any questions the committee may have.
    Thank you, sir.
    [The prepared statement of Mr. Potter follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. The gentleman yields back his time. The chair 
thanks him.
    And now I would like to recognize Mr. Steve Fletcher, 
Manager of the Washington County Water Company, Nashville, 
Illinois, in the great State of Illinois, and in the great 
district of the 15th Congressional District of Illinois, on 
behalf of--who represents that? I don't know--of the National 
Rural Water Association. You guys got me off my game.
    You are recognized for 5 minutes.

                  STATEMENT OF STEVE FLETCHER

    Mr. Fletcher. Good morning, Chairman Shimkus, Ranking 
Member Tonko, and members of the subcommittee. I am Steve 
Fletcher from rural Illinois in Washington County.
    Rural Illinois and New York and the rest of America thank 
you for this opportunity to testify on drinking water 
infrastructure. Thank you, Congressmen Shimkus and Tonko, for 
your visits to your local small communities in your districts 
to tour and help with specific community water issues. This is 
very much appreciated.
    I also need to thank Congressmen Harper, Tonko, and the 
subcommittee for passing the Grassroots Rural and Small 
Community Technical Assistance Act into law in the last 
Congress.
    I am representing all small and rural community water 
supplies today through my association with the Illinois and 
National Rural Water Association.
    Our member communities have the responsibility of supplying 
the public with safe drinking water and sanitation every second 
of every day. Most all water supplies in the U.S. are small. 
Ninety-two percent of the country's 50,366 drinking water 
supplies serve communities with fewer than 10,000 persons. 
Illinois has 1,749 community water systems and 1,434 serve less 
than 10,000 people. New York has 2,343, and 2,195 of those 
serve communities with less than 10,000 people.
    My water system is a not-for-profit rural water system 
started by a group of farmers in the late 1980s who organized 
and built the water system using funding from the Federal 
Government that allowed these mainly farm families to receive 
safe, piped drinking water for the first time. Without the 
financial help from the Federal Government, we could never have 
afforded to have safe public water or even a public water 
utility.
    Before the development of the rural water systems, rural 
households, including mine, relied on cisterns and private 
wells that were contaminated with nitrate so we couldn't drink 
the water.
    We are pleased to endorse the subcommittee's legislation of 
the Drinking Water System Improvement Act of 2017. Small and 
rural communities support the use of these existing Federal 
infrastructure initiatives like the SRFs as the primary 
delivery mechanisms for any new Federal water infrastructure 
initiative. These initiatives all have specific provisions 
targeting Federal water subsidies to community water projects 
based on environmental and economic need. If some type of 
needs-based targeting is not specifically included in any new 
water infrastructure legislation, the funding will bypass rural 
America and be absorbed by large metropolitan water projects.
    This bill accomplishes this objective. We support the 
bill's extended maximum loan duration and increase in the 
amount of additional subsidization to disadvantaged 
communities. Commonly, low-income or disadvantaged communities 
do not have the ability to pay back the loan, even with very 
low interest rates, and require some portion of grant funding 
to make the project affordable to the rate payers.
    I would like to make two more related policy points with my 
remaining time. First, there is a misconception among some 
stakeholders that SRFs are for small and rural communities. 
SRFs have no limitation on size or scope of a water project. 
According to the EPA, most SRF funding is allocated to large 
communities. Approximately 62 percent of Drinking Water SRF 
funding is awarded to large communities, including numerous SRF 
projects that cost over $50 or $100 million. SRFs work for all 
sized water systems, and we are grateful for your support of 
the programs.
    My final point is regarding local governmental choice in 
decisions of consolidation and privatization. The decision for 
any local government to privatize or consolidate should be 
determined at the discretion of local citizens. There is 
nothing inherently more efficient or more economical in the 
operation of our private water utility versus the public 
governmental water utility.
    Regarding consolidation, rural water associations and 
systems like mine have assisted in more communities 
consolidating their water supplies than any program or 
organization. Again, when communities believe consolidation 
will benefit them, they eagerly agree with these partnerships. 
I have numerous examples from my own community which partners 
with six neighboring water utilities in various forms. We do 
not think any new Federal regulatory policy at expense of local 
government control and choice for privatization or 
consolidation would be beneficial to local communities or their 
citizens.
    Thanks, Mr. Shimkus, for being such a good friend in 
support of rural America and to give us this opportunity today. 
I am happy to answer any questions.
    [The prepared statement of Mr. Fletcher follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. The gentleman yields back his time, and the 
chair thanks him.
    And now I would like to turn to Ms. Lisa Daniels, director 
of the Bureau of Safe Drinking Water at the Pennsylvania 
Department of Environmental Protection, on behalf of the 
Association of State Drinking Water Administrators.
    You are recognized for 5 minutes.

                   STATEMENT OF LISA DANIELS

    Ms. Daniels. Good morning, Chairman Shimkus, Ranking Member 
Tonko, and members of the subcommittee. Thank you for the 
opportunity to be here to discuss the status of our Nation's 
state drinking water programs.
    I am also President-Elect for ASDWA, so I am very glad to 
be here to represent the organization.
    Our members are on the front lines every day ensuring safe 
drinking water and protecting public health. Vibrant and 
sustainable communities, their citizens, and businesses, all 
depend on a safe and adequate supply of drinking water.
    States oversee more than 152,000 public water systems and 
interact with them through a broad range of activities that are 
funded through two Federal funding sources. Of course, there is 
the Drinking Water State Revolving Loan Fund, but there is also 
the Public Water System Supervision program.
    The vast majority of community water systems are in 
compliance with health-based standards. That is the good news. 
But what about those systems that struggle?
    The Drinking Water SRF can provide solutions for struggling 
systems. At only 20 years old, it really is a remarkable 
success story. It has allowed states to fund projects to 
upgrade treatment plants, rehabilitate distribution systems, 
address our aging infrastructure, and it has been quite 
successful. In fact, states have been able to leverage Federal 
funding to fund more than 13,000 projects through the SRF.
    A major component of the 1996 amendments was new statutory 
language that allow states to undertake what we call proactive 
measures. Funded through the set-asides, proactive measures 
such as operator training, technical assistance, and source 
water protection offer support for water systems as they strive 
to enhance their performance.
    Water systems are encouraged to consider a range of 
options, including partnerships, which could be as simple as 
sharing a backhoe or as complex as merging with a neighboring 
system. And the set-aside funds are available to support many 
of these activities.
    I would like to share an example from my home state. The 
Stockton Water System was a very small 43-home community that 
was operating as an untreated, unfiltered, and unpermitted 
surface water system. We discovered this system in 2014 because 
of customer complaints.
    The water was found to contain E. Coli, giardia, and 
salmonella. Traditional strategies and enforcement weren't 
working in this community. They really needed a different kind 
of assistance. We employed several capability enhancement 
programs in Stockton, including Capability Enhancement program, 
which provided the initial assessment and also provided onsite 
technical assistance to really help folks understand the 
challenges with this community. We also employed the 
professional engineering services program, which was able to 
conduct feasibility studies and design work to find the best 
solutions.
    These initiatives came together with PENNVEST, which is our 
SRF funding agency, to identify a willing partner. And we found 
that in the nearby Hazelton City Authority system. They agreed 
to work with Stockton, make the Drinking Water SRF application, 
extend water service, replace Stockton's existing distribution 
system, while keeping water rates at an affordable $35 per 
month. The total project cost was $2.2 million, which was 
underwritten by PENNVEST and, today, Stockton now has a safe 
and reliable supply of drinking water.
    Solutions such as this would absolutely not be possible 
without the Drinking Water SRF and the set-asides. Drinking 
water systems and the communities they serve are the direct 
beneficiaries of the work accomplished through these programs.
    State drinking water programs have often been expected to 
do more with less, and we have always responded with commitment 
and integrity, but we are currently stretched to the breaking 
point. Insufficient Federal funds increase the likelihood of 
contamination incidents, and we do not want to see another 
Charleston, West Virginia; Toledo, Ohio; or Flint, Michigan.
    To sustain public health protection, states need 
congressional support. For the past 4 years, the PWSS program 
has flat funded, and the Drinking Water SRF funding has 
decreased. These essential programs come with well-documented 
needs, and they must be fully supported.
    ASDWA recommends the PWSS program be funded at $200 
million, and we also recommend the Drinking Water SRF be funded 
at $1.2 billion to allow us to continue to do this great work.
    In summary, the 1996 amendments offered the community a 
promise of enhanced public health protection through a 
framework of both traditional and proactive collaboration 
between state drinking water programs and the water systems 
that they oversee. Maintaining funding for the Drinking Water 
SRF, the set-asides, and the PWSS program is critical.
    State drinking water programs are committed to fulfilling 
the promise of the 1996 amendments. Thank you.
    [The prepared statement of Ms. Daniels follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. I thank the lady.
    The chair now recognizes Mr. Kurt Vause, who gets the 
longest traveling award for getting here, Special Projects 
Director at Anchorage Water and Wastewater Utility, on behalf 
of the American Water Works Association.
    You are recognized for 5 minutes. Welcome.

                    STATEMENT OF KURT VAUSE

    Mr. Vause. Good morning, Chairman Shimkus, and members of 
the subcommittee. My name is Kurt Vause. I am the Special 
Projects Director for the Anchorage Water and Wastewater 
Utility from Anchorage, Alaska. I also serve as the Chair of 
the Water Utility Council and Acting Chair of the Asset 
Management Committee of the American Water Works Association.
    We deeply appreciate this opportunity to offer the 
viewpoints and experiences of drinking water providers to the 
important deliberations and decisions of this committee.
    The discussion draft of drinking water legislation this 
subcommittee is considering is a good step towards addressing 
the Nation's needs, to reinvest in its water infrastructure, 
and towards addressing other needs as well. I would like to 
briefly address three topics.
    First, providing safe drinking water to communities 
requires a complex mix of engineering, capital investment, 
management, science, community engagement, and regulatory 
resources. This complexity makes it particularly difficult for 
many small systems to remain in compliance in regulation and 
maintain their infrastructure.
    Options to help address these challenges include 
partnerships or regionalization to share resources among these 
systems, many who serve small systems and communities. 
Regionalization or partnerships encompass anything from 
physical connections to shared management, engineering, 
operations, and purchasing resources.
    When a compliant utility absorbs or merges a noncompliant 
utility, that newly formed utility faces a regulatory 
compliance challenge. The SDWA ought to provide a finite grace 
period for the newly merged system to come into compliance with 
regulation. Whether a utility has explored consolidation should 
become one of the factors weighted in ranking SRF loans or in 
evaluating compliance options.
    Second, all utilities manage their assets, but the practice 
we now formally call asset management is more scientific and 
focused. The goal of infrastructure asset management is to meet 
a required level of service in the most cost-effective manner 
at an acceptable level of risk through the management of assets 
for present and future customers.
    We do not believe a specific level of asset management 
practice should be mandated, because that would put Congress or 
a regulatory agency in the business of defining asset 
management objectives. Utilities vary too greatly in strategic 
objectives, size, type of assets, geography, climate, source 
waters, type of treatment and distribution for a Federal 
definition to be practical.
    Professional organizations such as AWWA are making 
education and asset management practice an ongoing part of our 
educational efforts for members. For example, AWWA's upcoming 
annual conference. Our Asset Management Committee has developed 
a track of sessions on project infrastructure and asset 
management with five individual sessions containing 27 separate 
presentations.
    We also believe there is a role States can play in similar 
efforts through the maintenance of the PWSS supervision grants. 
We urge Congress to maintain PWSS funding for fiscal year 2018 
at no less the current authorization levels.
    Third, as we have said before to Congress, local rates and 
charges have been and will likely always be the backbone of 
local water system finance. However, when major infrastructure 
projects require either to comply with regulations or replace 
aging infrastructure, there is a need for a quicker, larger 
infusion of cash than those rates and charges typically 
provide.
    This is where the toolbox of utility finance comes into 
play. This spring, AWWA cosigned a two-page summary of how the 
Federal Government can assist water utilities in financing 
these challenges. The highlights of that were: Number one, 
preserve the tax-exempt status of municipal bonds; two, provide 
fully authorized funding for the Water Infrastructure Finance 
and Innovation Act, known as WIFIA, at $45 million for fiscal 
year 2018; three, double appropriations for the drinking water 
and wastewater SRF programs; and four, remove the annual volume 
caps on private activity bonds for water infrastructure 
projects.
    We realize appropriations come from the Appropriations 
Committees, but we seek your support in funding with these 
panels.
    This concludes my remarks to the subcommittee. We also look 
forward to continuing dialogue with this panel after this 
hearing.
    [The prepared statement of Mr. Vause follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. The chair thanks the gentleman.
    The chair now recognizes Ms. Lynn Thorp, National Campaigns 
Director at Clean Water Action.
    You are recognized for 5 minutes.

                    STATEMENT OF LYNN THORP

    Ms. Thorp. Thank you.
    Good morning, Chairman Shimkus, Ranking Member Tonko, and 
members of the subcommittee. My name is Lynn Thorp. I am 
National Campaigns Director at Clean Water Action. We are a 
national organization with 1 million members working in 15 
states on health and environmental projects with an emphasis on 
drinking water issues.
    Thank you for the opportunity to provide comments on the 
Drinking Water System Improvement Act. Recent high profile 
events have highlighted the importance of infrastructure 
investment, effective system operation, and source water 
protection. From the drinking water crisis in Flint, Michigan, 
to the leaking chemical storage tank that contaminated the Elk 
River in West Virginia, we have seen how taking drinking water 
for granted can lead to public health risks and economic 
disruption of entire communities.
    Our approach to meeting 21st century drinking water 
challenges needs to be a holistic one. It should include not 
only increased investment in infrastructure, but also 
sufficient resources for effective oversight of Safe Drinking 
Water Act compliance by Federal and state primacy partners, 
more funding for research and innovation, more attention to 
keeping drinking water sources clean, and a vision for how we 
want our drinking water systems to look in the second half of 
the 21st century.
    You can see some ideas about that in the testimony from the 
witnesses we have heard from already this morning and in the 
2016 U.S. Environmental Protection Agency Drinking Water Action 
Plan.
    We do hope this subcommittee will consider provisions in 
the Safe Drinking Water Act Amendments of 2017, H.R. 1068, 
introduced by Representatives Tonko and Pallone earlier this 
year. Transparency, how we determine which contaminates to 
regulate, climate resiliency and drought, threats to drinking 
water from oil and gas and other activities, water efficiency, 
and technology innovation are all important if we are to 
maintain a high quality of drinking water and healthy water 
systems.
    We support Drinking Water State Revolving Fund 
authorizations commensurate with those proposed in the AQUA Act 
mentioned earlier today, which would authorize over $3 billion 
in fiscal year 2018, and increase thereafter reaching $5.5 
billion on fiscal year 2022.
    AWWA, the American Society of Civil Engineers, and EPA have 
repeatedly found investment needs orders of magnitude greater 
than those authorizations I have mentioned. Ambitious 
authorizations signal a commitment to clean drinking water and 
are a reasonable contribution to the mix of funding sources 
available to drinking water systems.
    We also support increased authorizations for Public Water 
Systems Supervision grants. The Association of State Drinking 
Water Administrators has estimated the gap in needs between 
current funding and comprehensive State programs to be $300 
million or more annually. As noted earlier, bridging this gap 
will increase public health protection and support sustainable 
drinking water systems.
    Drinking Water State Revolving Fund dollars can be spent on 
numerous activities that support those goals: pipe replacement, 
treatment upgrades, source water protection, improvements for 
storage, and system restructuring and consolidation. We want to 
highlight just two of those here as examples: pipe repair and 
replacement and source water protection.
    As you know, EPA estimates we may have between some 6 1A\1/
2\ or even more than 10 million lead service lines or partial 
lead service lines in the United States. Lead is a highly 
poisonous metal, and children under 6 are most at risk. 
Increased investment can help more communities move sooner to 
full lead service line replacement.
    American Society of Civil Engineers also estimates there 
are over 240,000 water main breaks each year due to 
deteriorating and poorly maintained pipes. As you probably 
know, just this week, a pipe from 1860, a water main broke 
right in Northwest, D.C. We lose water through leaks in mains 
and service lines as well, and these disruptions threaten 
public health, allowing pathogens to get into the pipes and, of 
course, lead to loss of treated water. Some estimates say up to 
18 percent of treated water, which is a valuable commodity, if 
you will.
    So shoring up our underground drinking water infrastructure 
not only protects public health, reduces lost revenue for 
drinking water systems, but also leads to less disruption, like 
we saw in parts of D.C. just this week.
    We can also use Drinking Water State Revolving Funds for 
source water protection, and many communities are using 
innovative strategies in this area. The return on investment 
there is clear in terms of public health protection. And the 
EPA estimates that every dollar spent on protecting a drinking 
water source saves $27 in drinking water treatment.
    I just want to close by noting that EPA programs are 
fundamental to the success of state programs and water systems. 
So increased state revolving fund investment won't be as 
effective if at the same time EPA lacks staffing and funding 
for oversight, enforcement, research, development of 
contaminant standards, support for small systems, and other 
critical activities.
    We urge subcommittee members to oppose cuts in EPA funding 
as well as rollbacks of health and environmental protections 
that would put our Nation's drinking water sources at risk of 
contamination.
    Thank you for the opportunity to provide these comments.
    [The prepared statement of Ms. Thorp follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. Thank you.
    The chair now recognizes Mr. James Proctor, Senior Vice 
President and General Counsel at McWane, Inc.
    You are recognized for 5 minutes.

                   STATEMENT OF JAMES PROCTOR

    Mr. Proctor. Chairman Shimkus, Ranking Member Tonko, 
Chairman Walden, Ranking Member Pallone, members of the 
subcommittee, good morning. I am Jim Proctor from McWane in 
Birmingham, Alabama, and I greatly appreciate the opportunity 
to be here this morning to testify about an issue that is so 
vital to our Nation's health, economy, and security.
    For almost 200 years, McWane has proudly provided the 
building blocks for our Nation's water infrastructure, 
supplying the pipes, valves, fittings, and related products 
that transport clean water to communities and homes across the 
country. We employ more than 6,000 team members who work in 14 
States and 9 other countries. Most of those team members are 
represented by the United Steelworkers and other labor 
organizations who we consider as partners in our efforts to 
improve our economy and our communities.
    I am pleased that the Committee is considering efforts to 
modernize the Drinking Water State Revolving Fund. The Drinking 
Water SRF has played a key role in delivering the investment 
efficiently to communities throughout the Nation. However, as 
the Committee has recognized, it needs reform to make it more 
responsive to the scale of America's water infrastructure 
needs.
    A vital component of any drinking water SRF improvement is 
a significant and consistent annual authorization level to spur 
increased capital investment. This investment will create and 
preserve the highways jobs that make these products and allow 
producers to harness the economies of scale that make American 
products more competitive. These impacts have a multiplier 
effect as they ripple through supply chains.
    We also need to invest those dollars wisely. Like 
generations before us, we should rebuild our infrastructure 
with the most durable energy efficient and safe materials 
available. And smart technology offers many innovative 
solutions that can improve system management and reduce cost to 
cash-strapped utilities. But increased funding and better 
management do American workers and industry little good if 
their tax dollars are spent on unfairly traded foreign imports.
    Like many other American manufacturers, we have made huge 
investments to modernize our operations to exceed the world's 
most rigorous environmental safety and regulatory standards. 
But we must compete every day against foreign state-owned or 
state-subsidized foundries that do not operate by any 
comparable regulatory standards and have little regard for 
workplace safety or the environment. This creates significant 
competitive disadvantages and have led to lost sales, closed 
plants, and lost jobs. And as the factories that once built our 
Nation's infrastructure disappear, communities lose the vital 
tax revenues and rate payers needed to operate and maintain 
their water systems.
    Put simply, we can't continue to divorce Federal regulatory 
policies from procurement policies. The same Federal Government 
that regulates our operations and taxes our workers should use 
their tax dollars to purchase domestic products for the 
Nation's infrastructure, particularly when foreign alternatives 
are produced in conditions that would make members of this 
esteemed body cringe.
    Fortunately, this problem has been mitigated recently by 
the application of the American Iron and Steel Buy American 
preference to the SRFs and WIFIA programs. Buy America has 
created incentives to preserve increased production capacities 
in the United States and to maintain work forces critical to 
sustaining the communities around them. I can say with pride 
and relief that this Buy American preference has saved at least 
one of our plants and preserved hundreds of jobs in the 
economically depressed area.
    By 2008, our waterworks fittings plant in Anniston, 
Alabama, was the last surviving domestic manufacturer of these 
products. At one time, there were as many as a dozen such 
plants in the U.S., but all fell victim to the unfair 
competition I described previously. Even that lone survivor was 
at risk of closure during the Great Recession, operating at 
around 30 percent of its production capacity. But because of 
Buy American, that plant has increased its capacity utilization 
to almost 70 percent, added product offerings, and more than 
doubled the number of jobs. Our other plants have seen similar 
benefits.
    But the impacts aren't limited to our operations. Because 
of Buy America, the primary importer of waterworks fittings has 
brought its production back to the United States, recently 
purchasing a domestic production facility and restoring 
hundreds of American jobs, while increasing competition in the 
marketplace.
    In 2014, Congress codified the Buy American preference for 
the Clean Water SRF and WIFIA. Over that same time, it has been 
applied to the Drinking Water SRF through the annual 
appropriations process.
    Congress should align the Drinking Water SRF with the Clean 
Water SRF, WIFIA, and other Federal infrastructure programs, 
like transportation, of making the provision permanent. This 
will not only preserve jobs, but a consistent standard will 
increase administrative efficiency and reduce costs since many 
water projects tap into multiple federal funding sources.
    The reformation and reauthorization of the Safe Drinking 
Water Act programs with the Buy American preference are crucial 
to our Nation's health and prosperity. We at McWane are honored 
to have the opportunity to contribute to that process.
    Thank you very much.
    [The prepared statement of Mr. Proctor follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. I thank you all for your testimony.
    We will now move into the question-and-answer portion of 
the hearing. I will begin the questioning and recognize myself 
for 5 minutes.
    And, of course, I will go to Mr. Fletcher first. Is it 
challenging for a small community to go through application 
processes for government assistance?
    Mr. Fletcher. Very much so, Congressman.
    Mr. Shimkus. What would you recommend a process of 
streamlining or the challenges? What could we do to make it 
easier?
    Mr. Fletcher. Well, I believe that if we have assistance, 
circuit rider program, something similar to that, for each 
state, that the circuit riders would have the knowledge to go 
to these small systems and help them through the process with 
the SRF application.
    Mr. Shimkus. Mr. Vause, your testimony calls for 
streamlining the SRF application process. What does that 
include for you?
    Mr. Vause. Mr. Chair, we do support efforts to reduce the 
burden on regulation and the application process itself. We 
think that the EPA can do, among its regions, developing best 
practices that can be applied to all of the regions there to 
streamline the application processes themselves.
    We believe, secondarily, that the ability to do the 
applications themselves rely on certain forms and certain 
procedures that the agency should streamline. Those procedures 
themselves go to the issue of the Buy America provisions, they 
go to the issues of tracking minority, disadvantaged, and women 
business enterprise activities related to SRF projects. So 
those are two areas that we would like to see where there is 
streamlining done. Thank you.
    Mr. Shimkus. And if anyone else on the panel would like to 
comment on the possibility of streamlining the application 
process for SRF?
    Oh, Ms. Daniels.
    Ms. Daniels. Yes. So if I could just add. So we have heard 
from applicants that they much prefer the RUS program because 
it is much more streamlined. And it seems that it can give the 
applicant upfront information sooner about what they might be 
eligible for, what rates they might be looking at, and it helps 
them then move forward from there and really design the project 
that fits sort of their understanding of funding.
    So if our program could figure out a way maybe to do a 
letter of intent where you get the financial information up 
front, because that is generally what is used to determine 
rates and moneys available, that would give folks some upfront 
information then to move forward and finish the complete 
application.
    Mr. Shimkus. Yes. What is the burden? You mentioned burden.
    Ms. Daniels. So the burden for completing the application?
    Mr. Shimkus. Right.
    Ms. Daniels. Well, I mean, it is substantial for small 
systems. In some cases, they are just not capable of completing 
it. So one of the assistance programs that I mentioned before, 
professional engineering services program, we do provide 
assistance. So if a community really needs help completing the 
application, we will work with them to do that.
    Mr. Shimkus. And I agree, being from rural America, I think 
the RUS ability for rural water co-ops and stuff have been 
very, very helpful. And I haven't heard the same concerns that 
I had with the SRF.
    Going back to you, Ms. Daniels, are there other reasonable 
steps that can be taken to simplify the SRF application process 
or paperwork? Anything else you can think of?
    Ms. Daniels. I think if we can come up with sort of an 
upfront screening process, so an upfront letter of intent, I 
think that gives folks a better sense.
    So in Pennsylvania, before they can come in for an 
application, they already have to have the project designed, 
they have to have all of the permits in place. There is a lot 
of expense that goes into getting to that point, and we don't 
even know yet, then, what they might qualify for or what rates 
they might be looking at.
    Mr. Shimkus. So let me finish up with you. We have heard a 
fair amount of testimony on disadvantaged communities. Are you 
comfortable with the flexibility that the Safe Drinking Water 
Act allows regarding the amount you can spend and how much debt 
you can forgive?
    Ms. Daniels. We really are. I think keeping the language of 
``up to'' gives states the flexibility. So in a given year, if 
we have lots of projects that meet that criteria, we are able 
to fund those. But in other years where we don't, it means we 
don't necessarily have to set that funding aside. We can use 
that for other worthwhile projects.
    Mr. Shimkus. Thank you very much.
    I would yield back my time, and now recognize Mr. Tonko for 
5 minutes.
    Mr. Tonko. Thank you.
    Many of the organizations represented today testified 
earlier this year. At that hearing, everyone agreed that more 
funding is necessary for the Drinking Water SRF.
    The SRF was initially authorized at $1 billion in 1996 and, 
frankly, I don't think that level of 20 years ago would meet 
our Nation's needs, especially since we have seen the need grow 
significantly during this time period.
    So my question to everyone on the panel is, do you support 
sustained increased funding for the SRF relative to historic 
levels?
    Mr. Kropelnicki?
    Mr. Kropelnicki. Yes, we do.
    Mr. Tonko. Mr. Potter?
    Mr. Potter. Sir, I would like to address the fact that the 
drinking water industry is a jobs program waiting to happen. We 
can put a lot of people to work in a hurry. So the level of 
funding that Congress would appropriate really can't be enough. 
We can put people to work. We can renew infrastructure. We can 
keep the dollars in the United States. We have used McWane 
pipe. It is a good pipe. Everything about the whole program is 
good for us. Fund us; we will put people to work.
    Mr. Tonko. Thank you.
    And can we continue, Mr. Fletcher, just across the board?
    Mr. Fletcher. Any increased funding for small communities 
would be greatly appreciated.
    Mr. Tonko. Thank you.
    Ms. Daniels?
    Ms. Daniels. So ASDWA supports funding of about a billion. 
Now, that isn't quite the same as maybe the double or the 
triple numbers that you are hearing from other folks. One of 
the reasons is that we have to understand that state staffing 
levels are what they are right now based on sort of the 
historical funding. States would have a difficult time quickly 
staffing up to be able to move a two or three times the amount 
of funding. I think what states may need is more moderate 
increases over a longer period of time and maybe some 
predictability that those funding levels will continue. That is 
what states need to really be sort of confident that they can 
increase staffing levels to be able to move those moneys.
    Mr. Tonko. Right. And I believe AQUA reflects that in its 
language.
    Mr. Vause?
    Mr. Vause. Mr. Tonko, yes. As we had indicated in our 
testimony, the doubling of SRFs, and we believe a sustained 
effort is necessary both for the SRFs and the WIFIA program.
    We do recognize, though, that states do have a match to the 
SRFs. So along with the increased funding at the Federal level 
is a requirement that the states have to match as well.
    Mr. Tonko. Thank you.
    Ms. Thorp?
    Ms. Thorp. Yes, thank you, Congressman. Yes. As I 
mentioned, we support significant increases in the state 
revolving funds as well as in the Public Water System 
Supervision grants. We recognize there are complications and 
that it is not the only solution to our Nation's drinking water 
challenges, but it is certainly a much needed piece of the 
puzzle.
    Mr. Tonko. Thank you.
    Mr. Proctor?
    Mr. Proctor. Absolutely. As has been noted previously, 
there is an estimated trillion dollar need to rehabilitate our 
country's water infrastructure. The unfortunate thing, though, 
is that highways, airports, other things like that get more 
attention, but the need is just as critical for water. If there 
is a pothole in a highway, I am sure you all get a phone call 
from a constituent, but with water, even though 20 percent of 
our water is leaking into the ground today, which is massive 
waste of a precious resource as well as the energy associated 
with it, it is out of sight, out of mind. But we can live 
without roads; we can't live without water.
    Mr. Tonko. Thank you.
    There are disadvantage systems that need extra assistance, 
and this discussion draft has some good ideas, but I believe 
there are additional things we can do to support them.
    Mr. Potter, can you expand why it is important to expand 
the definition of disadvantage community?
    Mr. Potter. Yes, sir. Fundamentally we are a large system, 
so we have 190,000 water accounts. We have areas at Metro Water 
Services that are relatively affluent. We have areas that are 
economically disadvantaged. If we do not expand the definition, 
then we wouldn't have the ability to have the additional 
subsidization available through the Drinking Water SRF.
    It provides us another tool to fund a project specifically 
in a disadvantaged area that we would not have if the 
definition wasn't expanded, so we would request that it be done 
so.
    Mr. Tonko. Thank you. And an asset management, the benefits 
of that management, of asset management are being more widely 
accepted, and I do understand the concerns about being overly 
prescriptive, but also believe that more can be done to 
encourage utilities to implement plans.
    To Mr. Vause and Mr. Potter, do you see a benefit to having 
systems finance projects that focus on the long-term 
sustainability of their systems?
    Start with you, Mr. Vause.
    Mr. Vause. Mr. Tonko, yes, and we do believe in the 
encouragement of every utility doing a project of that nature 
to consider the life cycle costs associated with that and to 
factor that into the decisionmaking on what is the right 
solution for that particular project issue at hand.
    Mr. Tonko. And Mr. Potter?
    Mr. Potter. Yes, sir. Asset management is a good thing. 
Recognizing that some utilities will have staffing that is more 
available than a small system. A good example is, is this a 
pump? If you take a brand new pump out of the box, and you 
install it, and you do vibration analysis and lubricational 
analysis over the life cycle of the pump, it is going to last 
longer. And that is a better use of O&M funding.
    If you don't do that, and that means you don't have asset 
management program, it is going to cost more. And if it costs 
more, those dollars will not be available for capital 
investment.
    So overall it is a good idea. We recognize that some 
utilities will have higher capabilities than others, but 
overall asset management works.
    Mr. Tonko. Thank you. Thank you. And I yield back.
    Mr. Shimkus. The gentleman's time is expired. The chair now 
recognizes the Chairman of the Full Committee Mr. Walden for 5 
minutes.
    Mr. Walden. Thank you, Mr. Chairman.
    Mr. Vause, one of the proposed SRF enhancements that you 
discussed in your testimony was added flexibility and repayment 
terms for the SRF loans. Why is added flexibility for repayment 
terms needed, and do you support the provision in the 
discussion draft that extends loan repayment schedules for 
disadvantaged communities from 30 years to 40 years?
    Mr. Vause. Mr. Walden, we do support the issue of extending 
the terms to disadvantaged communities, and essentially it is 
an issue of this, when you think about when you take out a loan 
for a home for other things, those are long-lived assets, and 
to be able to extend the terms out to not exceed the useful 
lives of the a ssets that are being funded through the SRF and 
so forth, that is an appropriate way to help communities who 
need to extend out the terms and so forth to be able to afford 
the loan.
    Mr. Walden. All right. And today's discussion draft removes 
Federal reporting requirements on Federal funding if state or 
local requirements are equivalent to the Federal requirements.
    From your perspective, Mr. Vause, what effect would this 
provision have, and would it be as beneficial as some of us 
think it would be, and do you support it?
    Mr. Vause. Mr. Walden, we do support that concept, and it 
does help and facilitate the ability of the loan recipient to 
be able to ease the administrative burden of a project of this 
nature.
    When utilities go through, being able to show that an equal 
or more stringent requirement exists, at the state level, makes 
it much easier to facilitate the use of the loans in the 
administration of a project that is funded and financed that 
way.
    Mr. Walden. And is there something we should do in terms of 
prioritization or should we stay out of that, and by ``that'' I 
mean when we identify in the country a problem, let's say lead 
in the pipes or arsenic in the water or something, should we be 
thinking about a way, or maybe it is already there, to target a 
support to communities to deal specifically with those issues 
as opposed to just a leaky water system or something of that 
nature?
    Mr. Vause. Mr. Walden, every state that acts as the primacy 
agency for SRF funds has their own set of criteria that they 
use to prioritize projects, and typically those prioritizations 
involve things that are of critical public health need, and, 
therefore, most of the monies that our experience is, is 
projects go to those that have the highest priority to protect 
public health.
    Mr. Walden. OK. Then sort of the several billion dollar 
question that is before all of us: How do we pay for this? I 
know at the local level in my water bill I pay for it. The 
Federal level we tend to just throw a number on a piece of 
paper and then go borrow it or find it or something.
    Are there any of these authorized programs out there that 
you would tell us really aren't working and we should move 
money from them to this? Any ideas on how we should pay for 
this from the Federal level, other than giving our kids and 
grandkids the due bill later in their life?
    Mr. Vause. Mr. Walden, I think a short answer to that is is 
the newly created WIFIA program is a great example of where the 
burden on the Federal Treasury is de minimis. In that situation 
it is a loan program.
    Mr. Walden. Right.
    Mr. Vause. And therefore, those who are in receipt of WIFIA 
loans really are paying back to the Federal Treasury and the 
effect is very, very minor.
    Mr. Walden. OK. Anybody else on the panel want to tackle 
the funding issue, other than being recipients of the funding.
    Mr. Shimkus. Would the chairman yield?
    Mr. Walden. Sure, of course.
    Mr. Shimkus. Under the WIFIA, which has been part of the 
discussion too, it is my understanding for small communities 
the requirements are so large that they can't apply. In fact, 
no loans have been made out of the WIFIA program yet.
    Am I correct or someone tell me about what they have done 
with the WIFIA. Mr. Potter?
    Mr. Potter. Sir, we think WIFIA is in addition to SRF. We 
don't think they are mutually exclusive. We think they are 
complementary, and we think they should both have equal funding 
attention.
    Mr. Walden. But to his point, and Mr. Vause, I represent 
eastern Oregon, it is not as big as Alaska, but we have got a 
lot of these little tiny communities.
    Mr. Shimkus. But you are a broadcaster in Alaska.
    Mr. Walden. That is true. The Mighty Ninety KFRB Fairbanks. 
But the point is they don't have a huge water department, it is 
the mayor or somebody. They have got a public works, but what 
we want to do is how do we streamline this and put the money in 
the pipe and the ground and the water system and not in the 
paperwork and the reporting and all of that? Isn't that what we 
are trying to get to here?
    Mr. Vause. Mr. Walden, with respect to the WIFIA program, 
for example, small communities under the size of 25,000, the 
project size that is eligible is a $5 million project. States 
also can apply for WIFIA loans, and they can bundle projects 
together from small communities to help facilitate that in that 
program.
    The ability of the small communities to administer an SRF 
program, to that question, I think the ideas that we have 
previously talked about of streamlining some of the paperwork 
exercising, having best practices used, but more importantly, 
the idea of being able to demonstrate the ability to use state 
regulations to avoid the issues of the cross-cutting 
requirements at the Federal level are all things that really 
help try to streamline that effort.
    Mr. Walden. Thank you, Mr. Chairman.
    Mr. Shimkus. The Chairman's time is expired. The chair now 
recognizes Ranking Member, Mr. Pallone, for 5 minutes.
    Mr. Pallone. Thank you, Mr. Chairman. We have seen numerous 
serious problems in the Safe Drinking Water Act that should be 
addressed in any legislation this committee passes to amend the 
Safe Drinking Water Act. The biggest challenge is clearly the 
lack of funds, but I want to quickly touch on a few others. And 
my questions are of Ms. Thorp.
    Does the discussion draft that is before us fix the 
weaknesses in the standard setting process under the Safe 
Drinking Water Act?
    Ms. Thorp. Thank you, Congressman Pallone. The discussion 
draft, as I read it, didn't address any of the contaminant 
regulation, national primary drinking water regulation setting 
process at all, so it didn't go into that topic.
    Mr. Pallone. All right. And the source water protection 
provisions in the statute have proven ineffective, and that is 
why my bill would create an entirely new program to ensure 
source water protection.
    Does the discussion draft before us do enough to ensure 
source water protection in your opinion?
    Ms. Thorp. Congressman Pallone, if I recall, the discussion 
draft did allow for some set-asides in Drinking Water State 
Revolving Fund monies to do source water protection plans and 
to update those systems and states. So we think that is a good 
idea.
    We do think there is some creativity and some innovation 
that needs to be applied as we look at the future of the Safe 
Drinking Water Act, which really as currently written, doesn't 
do much to protect source water or to reinforce our other 
environmental and public health protection statutes and 
regulations. Some interesting work could be done on that in the 
future.
    Mr. Pallone. All right. Thank you.
    Now, our Democratic proposals also address threats to 
source water, including oil and gas development and climate 
change. Does the discussion draft before us today address those 
threats?
    Ms. Thorp. Still to me, Congressman?
    Mr. Pallone. Yes, these are all to you.
    Ms. Thorp. Thank you, Congressman Pallone. I did not see 
anything on oil and gas activities and other sector threats to 
drinking water sources or on climate change and resilience.
    Mr. Pallone. All right. One of the concerns we hear about 
most on drinking water is lead contamination, particularly 
concerns about lead service lines and lead in school drinking 
water. Will this discussion draft get lead out of our homes and 
schools or do we need to do more?
    Ms. Thorp. I don't think the discussion draft addressed 
lead in schools or lead in water, and specifically, although as 
I mention in my testimony, increased authorizations and 
appropriations can help us with some aspects of the lead 
service line problems, for example.
    Mr. Pallone. All right. And then we also hear a lot of 
concerns about the need to restructure water systems to ensure 
the technical, financial, and managerial capacity to deliver 
safe water.
    Does the discussion draft need to be strengthened to 
effectively address the restructuring and consolidation in your 
opinion?
    Ms. Thorp. Well, I think some detail could be added. I 
think the discussion draft noted that this is one use of State 
Revolving Fund funds. So I think some of the detail we have 
seen in the bill that you, Congressman, introduced and in other 
places to support appropriate restructuring and consolidation 
would be helpful.
    Mr. Pallone. All right. Obviously, it is my opinion that 
this discussion draft needs a lot of work if it is going to 
actually address the problems we see in the Safe Drinking Water 
Act, so my hope is that my Republican colleagues will work with 
us as we move forward on some of the issues that I mentioned.
    I want to yield the rest of my time, though, to Mr. 
McNerney.
    Mr. McNerney. Well, I thank the ranking member of the full 
committee for yielding. I am going to read a statement and I 
want to know if all the panel members agree with a yes or 
disagree with a no: ``The draft mostly continues with the 
status quo, which is necessary but not sufficient to meet our 
Nation's drinking water needs.''
    Mr. Kropelnicki?
    Mr. Kropelnicki. I would agree with that, yes.
    Mr. McNerney. Mr. Potter?
    Mr. Potter. Yes, sir, I would agree with that statement.
    Mr. Fletcher. Yes.
    Ms. Daniels. Yes.
    Mr. Vause. Yes.
    Ms. Thorp. Yes.
    Mr. Proctor. Yes, sir.
    Mr. McNerney. Well, everybody said yes. I was going to take 
as just the ones that said yes, name one thing briefly that you 
think would most improve the legislation? Starting briefly. Go 
ahead.
    Mr. Kropelnicki. Requiring that any funds being expedited 
are used, be used economically, efficiently, that asset 
management and full life cycle pricing and full cost in the 
true value of water is reflected in the rates being charged to 
customers.
    Mr. McNerney. Mr. Potter?
    Mr. Potter. Yes, sir. I would support enhancement in asset 
management program requirements and codifying the amounts in 
the SRF funding levels, and strengthening the WIFIA 
authorizations.
    Mr. McNerney. Mr. Fletcher, briefly now?
    Mr. Fletcher. Technical assistance would be very important.
    Mr. McNerney. Very good.
    Mr. Fletcher And that for small systems in rural 
communities.
    Mr. McNerney. [continuing]. Ms. Daniels?
    Ms. Daniels. I would actually support being able to shift 
some of the work for source water protection plans to the SRF 
because that would free up set-aside funds for more technical 
assistance and other things within that program.
    Mr. McNerney. Thank you. Mr. Vause?
    Mr. Vause. Yes. EPA has stated that various states have 
unobligated or unspent balances in their Drinking Water SRF 
accounts, and when those dollars are not in circulation they 
are not being used to improve drinking water infrastructure.
    So in combination with increased SRF funding, we, AWWA, 
would urge Congress to use all the necessary tools to help 
state primacy agencies put those unexpended funds to use in 
drinking water infrastructure.
    Mr. McNerney. Ms. Thorp? Quickly, please.
    Ms. Thorp. To increase authorization, I think creative use 
of technical assistance and state programs to move toward 
having the most 21st century modern drinking water systems we 
can nationwide.
    Mr. McNerney. Yes.
    Mr. Proctor. In addition to the domestic preference and 
consistent levels of funding I mentioned in my earlier 
remarks----
    Mr. McNerney. Quickly, please.
    Mr. Proctor [continuing]. Additional things that would 
improve, the adoption of smart technology would go a long way.
    Mr. McNerney. Thank you, chairman.
    Mr. Shimkus. The gentleman's time is expired. The chair now 
recognizes the gentleman from Texas for 5 minutes.
    Mr. Barton. Thank you, Mr. Chairman. And I am not going to 
take 5 minutes.
    We appear to be on the verge of having a bill that most 
people agree with on both sides of the aisle. I don't hear a 
lot of negativity. I guess my only question would be, this 
section A, it says adds a new provision that if the Federal 
reporting requirements on Federal funding are pretty much the 
same as local requirements that you don't have to make the 
Federal report.
    Do you all agree with that? That sounds like a good deal to 
me.
    Mr. Kropelnicki. Yes.
    Mr. Barton. Nobody has heartburn over there?
    Ms. Daniels. No.
    Mr. Barton. With that, Mr. Chairman, I am going to yield 
the rest of my time to Mr. Murphy of Pennsylvania.
    Mr. Murphy. I thank the gentleman. Mr. Vause, let me start 
off with you.
    In your testimony you argued the present Buy America 
requirements to the SRF are unrealistic and that the conditions 
for granting a waiver should be loosened to make it easier to 
buy nonAmerican products, am I correct?
    Mr. Vause. We supported modifying the language.
    Mr. Murphy. Just am I correct or not, to make it easier to 
buy nonAmerican, is that a yes or a no?
    Mr. Vause. I am sorry, could you repeat the question?
    Mr. Murphy. So you said in your testimony, you argued the 
present buy American requirements are unrealistic and that the 
conditions for granting a waiver to this should be loosened to 
make it easier to buy non-American products. Did I understand 
that correctly?
    Mr. Vause. Yes.
    Mr. Murphy. OK. So are you willing to forego U.S. taxpayer 
dollars for your water projects in order to buy your steel from 
wherever you want?
    Mr. Vause. No.
    Mr. Murphy. Well, then what percent of funding from the 
Federal Government should you have cut in order to allow you to 
support the economy of China instead of the United States?
    Mr. Vause. That is not our intent, sir.
    Mr. Murphy. Well, but if you are not buying American steel 
but you are using American taxpayer's money to buy products 
from other countries, that is how it works out. So intention or 
not, that is the outcome.
    So, Mr. Proctor, in your testimony you discussed the 
benefits to McWane and the broader domestic steel industry of 
the American Iron and Steel Institute preference for Drinking 
Water State Revolving Fund. What impact would Congress enacting 
a statute to permanently apply this procurement preference 
policy to the DWSRF have on industry, domestic manufacturing, 
and jobs?
    Mr. Proctor. I think it would accelerate the repatriation 
of jobs back here to the U.S. A permanent provision would give 
industry the signal that it is worth investing in the new 
capital and the new capacity here in the United States, and we 
would see exactly what has already happened in the fittings 
business where jobs that went to China are coming back to the 
United States, and that would increase competition, as well as 
increase jobs and economic benefits.
    Mr. Murphy. So you speak of the lost opportunities of the 
domestic industries, as well as the administrative 
inconsistencies and inefficiencies that this generates. Can you 
explain what you mean by that?
    Mr. Proctor. Well, it just seems inconsistent that on the 
one hand you are taking tax dollars from American workers and 
then using those tax dollars to fund the purchase of materials 
and in the process taking away their livelihoods, number one.
    Number two, the agency that is charged with the 
administration of the SRF is the Environmental Protection 
Agency. When they impose regulations on American manufacturers 
that make them uncompetitive so that people go to China, India 
and other places to buy their products, they are having the 
perverse effect of sending those manufacturing jobs to place, 
not only eliminating jobs here in the U.S., but sending them to 
places that have no regard for the environment.
    Mr. Murphy. Like state-owned governments who also subsidize 
it and without the environment--so what happens is, so you may 
have an American steel worker paying U.S. taxes. Those taxes 
then go to help subsidize water projects to the community, 
which then because of the onerous regulations of the United 
States make other countries' steel cheaper, and those 
communities then buy other countries' steel, which further puts 
that steel worker out of a job, do I follow that correctly?
    Mr. Proctor. That is exactly right. That is exactly right. 
And you are making the environment worse in the process. 
Something around 25 percent of the particulate matter that 
falls on California comes from China.
    Mr. Murphy. So all the work we do in environmental 
improvements are just very small and overridden, I understand, 
by what China does in a short period of time?
    Mr. Proctor. That is correct.
    Mr. Murphy. Right.
    Mr. Proctor. China produces more carbon dioxide and 
greenhouse gasses than all the other iron and steel 
manufacturing companies in the world combined.
    Mr. Murphy. Thank you.
    Ms. Daniels, real quickly, how big of a national problem is 
the undiscovered water systems containing pathogens like in 
Cydectin?
    Ms. Daniels. It is really hard to quantify that. Every year 
it seems we find one or two undiscovered water systems mainly 
in our rural areas.
    When you are driving past a community it is hard to see, 
are they on private wells or a connected community water 
system?
    So often we find out about them because we get folks 
calling complaining about water quality, and that sort of leads 
us to the investigation.
    Mr. Murphy. Thank you. I yield back.
    Mr. Shimkus. The gentleman yields back the time. The chair 
now recognizes the gentleman from California, Mr. Peters, for 5 
minutes.
    Mr. Peters. Thank you, Mr. Chairman, and thanks for having 
this hearing. It comes at an important time when we obviously 
heard issues like Flint, we have got a 5-year drought ending in 
California, and it is a good time to talk about sustainability 
and resiliency, and we see reports that water prices would have 
to increase by 41 percent in the next 5 years to cover the 
costs of replacing infrastructure.
    A New York Times op-ed by Charles Fishman said ``Water is 
Broken. Data Can Fix It.'' And it claims that more than any 
single step, modernizing water data would unleash an era of 
water innovation like anything in the century. So I wanted to 
explore that with some of you who mentioned that.
    Ms. Thorp, you said that in your testimony that invasion 
data and information systems could increase transparency, 
enhance public engagement and awareness, provide more effective 
oversight and ultimately lead to increased public health 
protection.
    Can you tell me kind of what are the primary drivers for 
the lack of data and, you know, what are the steps we might 
take to employ data to be doing something beyond what we all 
agree we are doing today but we need to do?
    Ms. Thorp. Thank you, Congressman Peters.
    I think it is not a lack of data necessarily. It may be a 
lack of ability to compile the data and then make it usable to 
not only regulators but to folks in the drinking water sector 
in the public interest and public health communities.
    There are some interesting recommendations on that sometime 
late last year the President's Council of Science Advisors did 
an interesting report on drinking water data and urged folks to 
take a look at it. I do think some of the authorizations we 
have talked about today for state programs, as well as SRFs and 
EPA itself could lead to progress.
    Mr. Peters. I guess I am looking for more specifics on the 
steps we should be taking.
    Sometimes I find that if you leave it up to states to make 
these decisions, some of them will make more progress than 
others if they are not given the kind of technical assistance 
that we might be able to provide here.
    Ms. Thorp. Well, one simple step would be improving the 
technology we use both at EPA and in states for making it 
possible for drinking water consumers to understand monitoring 
results in their water systems, not just lead but others. That 
sort of thing.
    Mr. Peters. Mr. Potter, maybe you had some ideas about 
this, as well. Is it feasible to put water quality data online 
in real time, would that increase transparency?
    Mr. Potter. Yes sir it is. Was that directed to me?
    Mr. Peters. I am sorry, I was looking at Proctor, but I am 
sorry, Mr. Potter, yes.
    Mr. Potter. Yes sir it is. We have real time water quality 
data that we do and can put on the web.
    Mr. Peters. Is there something in this bill we should be 
doing to encourage that?
    Mr. Potter. I think encouragement of that in the asset 
management realm would be a perfect idea. Another example would 
be use of automatic metering to measure use at the tap and 
compare that to production. That would be a great asset 
management tool to identify where your leaks are.
    So that is lots of room for additional technology to be 
used in our industry.
    Mr. Peters. Is that being successfully employed in 
particular places?
    Mr. Potter. We are exploring that presently.
    Mr. Peters. OK. But you are exploring whether it is being 
employed or how it could be employed?
    Mr. Potter. How it can be used once it is deployed. We are 
transitioning to that technology right now.
    Mr. Peters. Mr. Vause, maybe you could tell us, we received 
a D on our drinking water infrastructure, and you have talked 
about whether this bill appropriately addresses the water 
infrastructure needs.
    What funding levels would you recommend adding into each 
bracket, and briefly why would you do that?
    Mr. Vause. Mr. Peters, we talked earlier about the fact 
that we would recommend appropriations at the full 
authorization level for WIFIA at $45 million in fiscal year 
2018, a doubling of the SRF's water and wastewater from their 
current fiscal year 2017 levels for fiscal year 2018.
    To the issue of the data and the information, if that is 
part of this question, as well, I concur with what was said 
using it for asset management but also from security and 
preparedness, having on time real line data on water system 
quality I think is a very, very vital thing, and I think the 
PWSS programs and supporting the states in their efforts at not 
less than the current funding levels are really important to go 
forward.
    Mr. Peters. And just along the lines of Mr. McNerney's 
question I think we have something here that we can find wide 
agreement on, but I think we can do more, and I hope we take 
the opportunity to improve off of the standard things we have 
been doing for a long time, and I appreciate all the witnesses 
for being here today. I yield back.
    Mr. McKinley [presiding]. The gentleman's time is expired. 
I recognize myself for 5 minutes.
    To the group, maybe it goes to you, Mr. Proctor, about 
energy efficiency. Tonko out of New York and Welch out of 
Vermont, we have worked together on trying to find ways of 
efficiency, and one of the things that I am concerned about is 
from this in the water system one of two engineers in Congress, 
and one of the things we are talking about is always how do we 
improve efficiency?
    And I think a smart grid system could be very interesting 
with our meters, and I think you were alluding to that perhaps 
in your testimony because if we have 240,000 breaks during a 
year, and we lose anywhere from 20 to plus percent of our 
water, that is not efficient. The electricity is lost in motors 
and generating pumps to move that and the water we are moving 
and the chemicals all the process, so the efficiency, I know 
that Europe is investing about $8 billion in the next 3 years 
in a smart systems smart metering system.
    Do you see that as being part of the solution of how we can 
be more prudent in our water programs?
    Mr. Proctor. Absolutely. And I would like to make two 
points about that. One is the smart technology that is emerging 
right now does create the opportunity to monitor as well as 
meter water that is flowing through our distribution systems.
    So you can detect leaks, and when you can detect the leaks 
you know exactly where it is so you don't spend a lot of time 
looking around trying to find it so you can repair it.
    Mr. McKinley. If Europe is so much out in front with $8 
billion, do you know what kind of numbers we are putting into 
this, into the research, into a smart meter?
    Mr. Proctor. I don't know the answer to that.
    Mr. McKinley. If you can get back to me on that.
    The other thing I wanted to talk about maybe to you, Mr. 
Vause, is rural water. I come from West Virginia. We have a lot 
of areas that are really hurting for water, and I am thinking 
in Alaska you have got a similar situation.
    And we know around the world there are some deficiencies 
with that people can't get access to water. And there is a 
program that is being developed in West Virginia at Ohio Valley 
University with Katharos, it is a group out of Denver in 
consolidation or in coordination with the Ohio Valley 
University to develop a mobile water treatment facility.
    And they have been able to get it now to the point that 
they can produce water now at $0.27 per person per day. That is 
pretty competitive with it. So I am wondering whether or not 
that is something that we should--first, are you first are you 
aware of the Katharos Catharis program?
    Mr. Vause. I am not aware of that particular program 
myself, but at our state, in Alaska for example, there are 
several ways that we are researching in partnership with the 
EPA ways to improve water supply to many rural areas of our 
state, and those include using innovation and trying to provide 
recycling and reuse technologies, so that for the limited 
supplies that are available, that there are ways in which we 
can improve at a household level the ability to have----
    Mr. McKinley. I know their program is what they are trying 
to develop there, is also been using solar panels, so they can 
go to areas without electricity and still be able to process 
water for families in that immediate area.
    I think it also has opportunity for us where we have some 
serious leaks where people can't get water that a mobile unit 
could come in and be able to provide them water service during 
the interim period of time.
    I am very optimistic that these mobile units could be very 
helpful to us, so I thank you on that. Could you grab that? 
This is an example of, when I say a water problem, I have 
designed thousands of miles of water systems, and this is one 
in rural West Virginia, a good 1-inch waterline that probably 
has about 80 percent of it occluded that they can't pass water 
through.
    This is what we see all across America. That is why this 
urgency of getting something done so that these families can 
have dependable clean water, and this is certainly unable to 
provide that.
    So I thank you for that and I yield the balance of my time. 
Who do we have next?
    OK. Mr. Green, you are recognized for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman. I want to thank our 
chairman and ranking member for holding hearings today.
    Water challenges are all over the country and where I am 
from in Texas I have a very urban district. It is mostly 
incorporated by either the City of Houston or smaller cities 
that provide water, but we have some areas that are urban areas 
outside the city limits and none of the cities will annex it 
because of the low property values. They just can't afford to 
come in and put new waterlines or streets or anything else.
    So what I was going to see if is in these unincorporated 
communities that are very urban, and I am sure rural areas have 
the same problem with low property values. In Texas we created 
decades ago water districts that are actually local levels of 
government for water and sewer and other things if they would 
like.
    But, again, you can't even create that if you have low 
value for your property because you can't sell bonds if you 
can't afford to pay them off.
    Is there a Federal program for these areas similar to what 
rural water authorities would be to help get water and sewer 
because, again, these are very urban areas, but our traditional 
sources of water and sewer are not there, so what they have is 
water wells and septic tanks that are, again, in urban areas 
not designed to have that much usage, I guess.
    Is there a Federal program that would help that? Our county 
commissioners have helped with what they can but, again, they 
don't have the budget oftentimes to except to provide just a 
little bit of money, so that we have a partner but we would 
need Federal funding to do it in a low wealth area.
    Anybody have any? Yes, sir.
    Mr. Fletcher. Rural development has their water loan and 
grant program, and in Illinois, in my system itself, was 
unserved back in the late eighties. And we got a group of 
people together that tried to form this water system. And they 
went and talked to people, and people put deposits in of $20. 
It cost them $150 to get the meter once we had funding, but we 
went to a Farmers Home Administration and got our first loan 
and grant was $2-and-a-half million.
    And we served those people. And we have continued to do 
that through this program. And I can only assume that there 
could be somebody in that area that would take the bull by the 
horns and try to do the same thing there.
    Mr. Green. Mr. Proctor, can you tell us a little about the 
role your company plays in drinking water infrastructure 
projects?
    Mr. Proctor. Yes, sir. We manufacture the basic building 
blocks for the Nation's water infrastructure. We make pipe, 
valves, fittings, fire hydrants, and all those related 
projects.
    Mr. Green. OK. Coming from Houston, and I have a whole 
bunch of chemical plants that make PVC pipe, and I just met 
with a group of them yesterday. I know there is some 
competition because PVC typically doesn't rust, but there is 
other problems with it also, so what would you guess would be 
the usage of PVC compared to metal pipes?
    Mr. Proctor. I am not sure what the percentages are 
exactly, but I can say this, that iron is much more durable 
than PVC, and their modern techniques virtually eliminate the 
corrosion for pipe that is installed today.
    But even without that, if you look at the track record of 
iron, as someone mentioned earlier, there was a problem that 
occurred just the other day for a pipe manufactured in 1860, 
and that was old cast iron.
    Today we have ductal iron that is even stronger and lasts 
even longer.
    Mr. Green. OK. And I know in my area, though, when we see 
new subdivisions built I almost always see it being built by 
PVC. Again, because local prices and things like that I guess 
goes there.
    What are the steps that Congress and the EPA can take to 
ensure that we have the trained workers who need to modernize 
and maintain our water system? In our district, like I said 
earlier, we have disadvantaged communities that do not have the 
resources to invest. In fact, some of the areas in our district 
would be called-- are colonia, which decades ago was created 
along the border.
    Somebody would go buy, set out a subdivision, but they 
wouldn't provide any water and sewer, so people would buy a 
lot, and the only way they could get water is do their own well 
or a septic tank. But I am also interested in the training for 
the employees that need to be putting these systems in.
    Anybody on the panel? Yes, sir.
    Mr. Fletcher. Texas Rural Water Association has circuit 
riders and technical assistance and training for people like 
that, for operators that want to learn how to operate a system 
and get certified. And it is free of charge to these small 
communities.
    Mr. Green. Great. Thank you. I have run out of time. Thank 
you, Mr. Chairman.
    Mr. Shimkus. The gentleman's time has expired. The chair 
now recognizes the gentleman from Mississippi, Mr. Harper, for 
5 minutes.
    Mr. Harper. Thank you, Mr. Chairman, and thank you for 
holding this hearing. I know this is an issue we have looked at 
for years and continue to be concerned about.
    I want to thank each witness for being here and taking time 
to help us. This is something that as we look at the aging 
infrastructure in so many of these systems and how we are doing 
that, and I agree to Mr. Fletcher, the circuit riders in my 
State of Mississippi have done a remarkable job of helping 
areas that maybe don't have the resources, and I think that has 
been a great value across the country where those have been 
used.
    Mr. Vause, if I could ask you a couple of questions. And I 
know that Mr. Tonko touched on some of this earlier, but I want 
to try to look a little deeper. I know in your written 
testimony you emphasize the need for asset management to be 
encouraged but not mandated. Is there agreement among the 
industry as to what constitutes good asset management 
practices?
    Mr. Vause. There are basically two models, and those models 
revolve around five basic concepts. The concepts are more or 
less solidified between those two models, and so what 
constitutes good practice really gets to the level of how well 
you practice each one of those five steps within asset 
management.
    So, I would say generally yes is the answer to that 
question.
    Mr. Harper. OK. But also in that these are sometimes goals 
or objectives, but how they are met I guess depends upon the 
resources and determination of each group. Would that be 
correct?
    Mr. Vause. There is. There are policy considerations, 
considerations that go to what are the necessary levels of 
service that need to be provided for a particular community. 
Those are objectives that are set through public policy. There 
are what are also besides the required levels of service are 
what are the tolerances that a community has for the degree of 
risk that they are willing to accept or not accept.
    Again, those are public policy choices that are made best 
at the local level, and so there is no one specific answer.
    Mr. Harper. Sure. And of course you are here wearing more 
than one hat, but on behalf of the American Water Works 
Association what is that organization doing to encourage or 
support that better asset management?
    Mr. Vause. Yes. We provide through a variety and suite of 
educational offerings, both in printed materials, in 
conferences, in workshops, webinars, and so forth, a variety of 
opportunities for practitioners to be able to learn about these 
concepts, to see how they are applied both in the United States 
and elsewhere.
    And to bring that information down to the level that allows 
people from the top executive level down to the plant floor and 
operators to have the opportunities, the educational 
opportunities that are necessary to learn how to best apply 
those practices for their utilities.
    Mr. Harper. All right. Well, let's look at where we are 
right now. If we were talking about what industry or government 
could do, that might encourage better asset management, does 
something stand out that you would give us as a takeaway that 
you want to make sure we don't miss?
    Mr. Vause. I think the ability to have the Environmental 
Protection Agency to be able to monitor these developments and 
provide materials on a periodic basis to update as time 
progresses, I think that is an important thing to include in 
this particular legislation is to ask the administrator to be 
able to update those on a regular basis and to make them 
available to all water systems across the United States. I 
think that is one aspect.
    The second aspect that I think is as important is to 
provide the encouragement through providing a positive 
incentive to those systems that are interested in securing an 
SRF loan to be able to reward them for having made positive 
steps in advancing and adopting those practices at their local 
utility, not to penalize anyone for not having done so.
    But to reinforce through positive rewards, if you will, the 
ability to work with the agencies and to secure loans so that 
there is a recognition that advancing these practices leads to 
good things for utilities.
    Mr. Harper. And do you believe you have sufficiently 
objective criteria to measure that progress?
    Mr. Vause. I think there are ways to measure that, and we 
would certainly be interested in working with the panel here to 
help identify those specific things that would be able to show 
measurable progress.
    Mr. Harper. Thank you very much. And with that I yield 
back.
    Mr. Shimkus. The gentleman yields back his time. Mr. Chair?
    Mr. Tonko. If I might, I know we are rushing off to the 
briefing for all the House Members.
    I just wanted to offer this observation, that everyone is 
indicating that we need more Federal dollars to address what is 
a basic core bit of infrastructure that speaks to our needs, 
individual needs, household needs, and business needs. But if 
we can find it in our means to provide for 70 billion from the 
general fund for roads and bridges the FAST Act, I think we 
need to step up and say, hey, look, this is a hidden 
infrastructure that cannot be out of sight and out of mind.
    We need to do better. We need to prioritize here and not 
set aside the needs here that should be funded with additional 
resources from the Federal budget based on recent happenings 
here in DC.
    Mr. Shimkus. And I applaud my colleague for being 
passionate and committed. So thank you for that.
    Seeing there are no further members wishing to ask 
questions for the panel, I would like to thank you all for 
coming and also coming early. Again, in my 20 years this is 
probably the earliest hearing I have been involved with.
    Before we conclude I would like to ask for unanimous 
consent to submit the following document for the record, a 
letter from the United States Steel Workers. Without objection 
so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. McKinley. And pursuant to committee rules I remind 
members they have 10 business days to submit additional 
questions for the record, and I ask that witnesses submit their 
responses within 10 business days upon receipt of the 
questions.
    And you may get a little bit more since we are so busy this 
morning, so I think minority counsel warned you all about that 
previously. Upon receipt of the questions.
    Without objection, the subcommittee is adjourned.
    [Whereupon, at 10:11 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
